No. 19A
IN THE

;Tctprerf-te Court of tbe Eirateb i§otate5
TIMMIE D. COLE, SR., JOSE ADRIAN HERNANDEZ, STEPHON MASON,
ARNULFO TORRES PEREZ & DAVID SAMARRIPA,
Applicants,
v.
J. RAY ORMOND, WARDEN,
Respondent.

CERTIFICATE OF SERVICE
Pursuant to Supreme Court Rules 29.3 and 29.5(b), I, Katherine Wellington,
a member of the Bar of this Court, hereby certify that on May 8, 2019, a copy of the
foregoing Application for an Extension of Time to File a Petition for a Writ of Certiorari was served by overnight Federal Express to the following counsel for respondent:
Noel J. Francisco, Solicitor General
DEPARTMENT OF JUSTICE
Room 5616
950 Pennsylvania Ave., N.W.
Washington, D.C. 20530-0001
Edward Himmelfarb, Appellate Staff, Civil Division
DEPARTMENT OF JUSTICE
Room 7541
950 Pennsylvania Ave., N.W.
Washington, D.C. 20530-0001

I further certify that all parties required to be served have been served.

Date: May 8, 2019

--IrOc- UUR7C
Katherine Wellington

